Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL



  CMS’S IMPLEMENTATION OF
  SAFEGUARDS DURING FISCAL
  YEAR 2006 TO PREVENT AND
   DETECT FRAUD AND ABUSE
  IN MEDICARE PRESCRIPTION
         DRUG PLANS




                    Daniel R. Levinson
                     Inspector General

                      October 2007
                     OEI-06-06-00280
               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
E X E C U T I V E              S U     M M A R Y
Δ    E X E C U T I V E                     S U M M A R Y




                   OBJECTIVE
                   To determine the extent to which the Centers for Medicare & Medicaid
                   Services (CMS) implemented safeguards during fiscal year (FY) 2006 to
                   prevent and detect fraud and abuse in Medicare prescription drug plans
                   (PDP).


                   BACKGROUND
                   CMS is responsible for safeguarding the Medicare Part D program
                   against fraud and abuse. CMS is statutorily required to perform
                   financial audits of PDPs contracted to provide drug benefits to Medicare
                   beneficiaries. Beyond this requirement, CMS holds considerable
                   discretion in structuring safeguards for the program. In total, we
                   identified six major safeguard activities conducted by CMS: a complaint
                   process, data-monitoring activities, financial audits, monitoring PDP
                   sponsor compliance with contract requirements, oversight of PDP efforts
                   to reduce fraud and abuse, and providing education and guidance to a
                   number of stakeholders on fraud and abuse identification. CMS
                   contracted with one Medicare Prescription Drug Integrity Contractor
                   (MEDIC) in FY 2006 to perform some of these functions, including
                   complaint investigation.

                   To identify the status of safeguard implementation and to provide an
                   early assessment of progress, we reviewed documents provided by CMS
                   and the MEDIC describing and documenting current and planned
                   efforts during FY 2006 and conducted a series of structured interviews
                   with CMS and MEDIC staff. Although our focus was on PDPs, some of
                   the concerns raised may also be applicable to Medicare Advantage
                   Prescription Drug Plans and the Retiree Drug Subsidy.


                   FINDINGS
                   CMS implemented safeguard activities throughout FY 2006;
                   however, further development or application of these activities is
                   needed
                   Some of CMS’s safeguards have been functioning since enrollment
                   began, while others were implemented in a limited capacity or had not
                   yet begun. For example, the complaint process has been in place since

 OEI-06-06-00280   SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   i
E X E C U T I V E              S U     M M A R Y 



                   November 2005, but other safeguards, such as data analysis for fraud
                   detection, had not yet begun by the end of FY 2006. Compliance audits,
                   an important tool for monitoring PDP sponsor compliance, had not
                   begun, but CMS staff underwent extensive preparations, including
                   protocol development and staff training. CMS reported that initial
                   preparation for financial audits began in FY 2006, with the first audits
                   expected to begin in January 2008. CMS issued initial guidance for
                   PDP compliance plans and is conducting education initiatives; however,
                   the slow release of two important guidance documents raises concern.
                   In FY 2006, CMS relied largely on complaints to identify potential
                   fraud and abuse in the Medicare Part D program; however, not all
                   complaints were investigated timely
                   During the first year of the program’s operation, CMS relied largely on
                   complaints to identify potential fraud schemes and abusive practices.
                   Fraud complaints are handled by the MEDIC, which evaluates the
                   merit of each complaint, conducts investigations, and makes referrals to
                   law enforcement, as appropriate. At the end of our data collection,
                   24 percent of the 6,132 complaints that the MEDIC had received were
                   open cases, apparently the result of insufficient staff. In addition, CMS
                   does not track Medicare Part D fraud and abuse complaints made to
                   1-800-MEDICARE, nor does it know if these callers actually follow
                   through with instructions to make additional calls to the MEDIC
                   hotline.
                   Limits to legal authority, jurisdiction, and CMS’s ability to monitor
                   enrollees switching plans complicate CMS’s efforts to safeguard
                   Medicare Part D PDPs
                   We identified three impediments to the effective oversight of Medicare
                   Part D, specifically in the areas of financial auditing, Part D marketing,
                   and utilization management. For example, CMS does not have the legal
                   right to go onto the premises of pharmaceutical benefit managers to
                   verify that plans accurately report all remuneration and must rely on
                   PDP sponsors to include sufficient requirements in their own contracts.
                   Further, CMS has limited authority over insurance brokers, one of the
                   most frequent subjects of fraud complaints. Lastly, coordination of
                   information between plans about beneficiaries suspected of
                   inappropriate utilization had not occurred because the plan sponsors
                   have concerns over the Health Insurance Portability and Accountability
                   Act of 1996 privacy laws.



 OEI-06-06-00280   SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   ii
E X E C U T I V E              S U     M M A R Y 




                   RECOMMENDATIONS
                   To ensure that CMS’s program integrity safeguard activities are
                   implemented in a manner that is sufficient to protect the Medicare
                   Part D program, we recommend that CMS:
                   Develop a comprehensive safeguard strategy for Medicare Part D
                   PDPs with specific activities and target dates and ensure that all
                   activities are progressing in a timely manner. CMS should develop a
                   comprehensive strategy with specific activities and target dates and assign
                   staff to follow up on progress. Further, CMS should make Medicare Part
                   D safeguard activities a sufficient priority in the budgeting process to
                   support their timely and effective administration.

                   Ensure that all fraud complaints receive proper attention. CMS should
                   have a process in place to monitor the number of open complaints and
                   take action if backlogs occur. Additionally, CMS should investigate
                   options to immediately transfer fraud complaints submitted to 1-800-
                   MEDICARE to the appropriate MEDIC.
                   Address legal concerns that may impede program integrity efforts.
                   Specifically, CMS should: (1) require PDP sponsors to include standard
                   wording regarding requirements for record retention and accessibility
                   within subcontractor contracts, (2) enforce appropriate sanctions for
                   plans whose brokers violate permissible marketing practices, and
                   (3) utilize the MEDICs as intermediaries for PDPs to share information
                   about their beneficiaries suspected of inappropriate utilization.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its comments to the draft report, CMS responded that many of its
                   ongoing activities already satisfy our recommendations. It further
                   stated that the report does not fully explain the immense workload
                   required for CMS to develop and administer the benefit in its first year
                   and indicated that processes and procedures have improved over time.
                   CMS additionally reported several advances in this safeguard strategy
                   that occurred after the end of our data collection period (FY 2006). We
                   revised the draft report, as appropriate, based on these comments. CMS
                   did not indicate whether it concurred with our recommendations. We
                   ask that, in its final management decision, CMS indicate whether it
                   concurs with our recommendations and what steps, if any, it will take to
                   implement them.


 OEI-06-06-00280   SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   iii
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY ....................................i




         INTRODUCTION........................................... 1




         FINDINGS ................................................. 8 

                   CMS implemented safeguard activities in FY 2006 . . . . . . . . . . . . 8 


                   CMS relied largely on complaints . . . . . . . . . . . . . . . . . . . . . . . . . 12 


                   Legal authorities, jurisdiction, and monitoring enrollees . . . . . . . 14 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 

                   Agency Comments and Office of Inspector General Response . . . . 19 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 

                   Appendix A: Medicare Part D Benefits and Operation. . . . . . . . . 23 


                   Appendix B: Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . 25 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29 

Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  To determine the extent to which the Centers for Medicare & Medicaid
                  Services (CMS) implemented safeguards during fiscal year (FY) 2006 to
                  prevent and detect fraud and abuse in Medicare prescription drug plans
                  (PDP).


                  BACKGROUND
                  This inspection is an early implementation review of CMS’s efforts to
                  prevent and detect fraud in Medicare Part D PDPs. A separate Office of
                  Inspector General (OIG) inspection, “Prescription Drug Plan Sponsors’
                  Compliance Plans,” addressed efforts made by the plans themselves.1
                  Medicare Part D Prescription Drug Program
                  The Medicare Prescription Drug, Improvement, and Modernization Act
                  of 2003 (MMA) established the Medicare Part D prescription drug
                  program. Effective January 1, 2006, this program provides an optional
                  outpatient prescription drug benefit, which is available to all 42 million
                  Medicare beneficiaries.2 3 Beneficiaries generally have the option to
                  enroll either in a stand-alone PDP for their drug coverage and receive
                  all other benefits through traditional Medicare fee-for-service or enroll
                  in a Medicare Advantage plan and receive all Medicare benefits,
                  including drug coverage, through managed care.4
                  The MMA required an aggressive implementation schedule for the
                  Medicare Part D benefit. In the approximately 2 years between passage
                  of the law and the effective date of Medicare Part D coverage, CMS and
                  plan sponsors were conducting implementation activities, including the
                  development of procedures, data systems, and infrastructure to carry
                  out all necessary functions. Applications for the first PDPs were due in
                  March 2005 and beneficiaries began electing coverage in
                  November 2005. As of July 2006, approximately 24 million Medicare



                    1 OEI-03-06-00100. 

                    2 Social Security Act § 1860D-1. 

                    3 Centers for Medicare & Medicaid Services, “Medicare Enrollment: National Trends

                    1966-2005.” Available online at 

                    http://www.cms.hhs.gov/MedicareEnRpts/Downloads/HISMI05.pdf. Accessed on March 

                    22, 2006. 

                    4 CMS, Final Rule, “Medicare Prescription Drug Benefit,” 70 Fed. Reg. 4194 

                    (January 28, 2005). 




OEI-06-06-00280   SAFEGUARDS TO PREVENT     AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   1
I N T R O D        U C T      I O N 



                    beneficiaries were enrolled in a Medicare Part D drug plan.5 A
                    summary of the benefit and its operation is included in Appendix A.

                    During 2006, the first full year of the benefit, expenditures totaled more
                    than $47 billion.6 To implement the program, CMS received $1 billion
                    for startup costs to be used in FYs 2004 and 2005.7 Of that $1 billion,
                    CMS used 44 percent for education and outreach, 5 percent for payroll
                    expenses, and the balance primarily for information technology
                    improvements.8 It is unclear what portion of the $1 billion was
                    dedicated to program integrity efforts. In addition, CMS received a one-
                    time increase of $100 million from the Deficit Reduction Act (DRA) of
                    2005 for Medicare program integrity activities conducted during FY
                    2006. 9 A portion of these funds was allocated to activities designed to
                    protect Medicare Part D from fraud and abuse. Future funding sources
                    for Part D program integrity activities have yet to be determined.
                    Program Integrity Staff and Medicare Prescription Drug Integrity Contractors
                    Numerous groups within CMS have responsibility for overseeing
                    aspects of Part D administration, including the Center for Beneficiary
                    Choices, the Office of the Actuary, and the Office of Financial
                    Management. However, the Medicare Modernization Act Integrity
                    (MMAI) group within the Office of Financial Management’s Program
                    Integrity Group is focused specifically on fraud prevention and detection
                    in Part D. The MMAI group conducts training, reviews regulations, and
                    provides guidance to the Department of Health and Human Services on
                    what fraud-related vulnerabilities exist and how they should be
                    addressed. It is also responsible for overseeing the Medicare
                    Prescription Drug Integrity Contractors (MEDIC).



                      5 Center for Medicare & Medicaid Services, “Medicare Advantage, Cost, PACE, Demo, 

                      and Prescription Drug Plan Contract Report – Monthly Summary Report.” September 

                      2006. Available online at 

                      http://www.cms.hhs.gov/PrescriptionDrugCovGenIn/02_EnrollmentData.asp. Accessed

                      on October 18, 2006. 

                      6 “2007 Annual Report of the Boards of Trustees of the Federal Hospital Insurance and 

                      Federal Supplementary Medical Insurance Trust Funds,” p. 5. Available online at 

                      http://www.cms.hhs.gov/ReportsTrust Funds/downloads/tr2007.pdf. 

                      Accessed on July 24, 2007. 

                      7 Public Law 108-173 § 1015. 

                      8 Centers for Medicare & Medicaid Services, “Budget Facts.” February 7, 2005. Available 

                      online at http://www.cms.hhs.gov/apps/media/ press/release.asp?Counter=1350. Accessed 

                      on May 30, 2006. 

                      9 Deficit Reduction Act § 5204 amending Social Security Act § 1817(k)(4)C. 





 OEI-06-06-00280    SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   2
I N T R O D        U C T     I O N 



                    MEDICs are private firms with which CMS contracts to perform fraud
                    prevention and detection activities, including complaint tracking and
                    investigation and data mining. Only one MEDIC contract was awarded
                    for work conducted during FY 2006 and that contract was awarded on a
                    reduced-scope basis. CMS attributed this decision to funding
                    limitations. That MEDIC provided the staff dedicated to investigating
                    prescription drug fraud complaints during the first year of the Medicare
                    Part D benefit. Three regional MEDICs and a data-focused MEDIC
                    were each awarded 1-year contracts in September 2006 (after release of
                    the DRA funds) with operations beginning in December 2006.
                    Fraud and Abuse Strategy
                    CMS is responsible for preventing and detecting fraud and abuse in
                    Medicare Part D. However, the only activity statutorily required of
                    CMS is to conduct financial audits of one-third of the plans each year.10
                    Beyond that, CMS exercises considerable discretion in safeguarding the
                    program. CMS’s publicly announced plans to combat fraud and abuse
                    in Medicare Part D include a range of prevention and detection
                    activities; however, the complete strategy has not been laid out as a
                    single comprehensive plan. Accordingly, we analyzed CMS’s various
                    press releases and guidance documents to identify CMS’s safeguard
                    activities.

                    In an October 2005 press release, CMS announced that it would be
                    “expanding its efforts in fighting fraud and abuse in Medicare [Part D]
                    by using state of the art systems and expertise to prevent problems
                    before they occur.”11 It further discussed a general three-pronged
                    approach to safeguarding the Medicare Part D program which includes:
                    (1) implementing new and innovative techniques to monitor and analyze
                    data to help identify fraud; (2) working with key partners, such as law
                    enforcement and consumer groups; and (3) providing tips for
                    beneficiaries to protect themselves. In this same press release, CMS
                    announced the selection of eight MEDICs that would then be eligible to
                    bid on contracts for future MEDIC work. Also in October 2005, CMS
                    released a document titled “Part D Oversight Strategy for



                      10 Social Security Act § 1860D-12(b)(3)(C).
                      11 CMS Fact Sheet: The New Medicare Prescription Drug Program: Attacking Fraud
                      and Abuse. October 7, 2005. Available online at
                      www.cms.hhs.gov/apps/media/press/release.asp?Counter=1693. Accessed on
                      November 20, 2006.



 OEI-06-06-00280    SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   3
I N T R O D        U C T      I O N


                    Contractors/Industry.”12 This document states that oversight “will be
                    data driven to the extent possible” and identifies four functions that will
                    feed into oversight: contractor management, auditing, compliance and
                    enforcement, and the functions performed by MMAI and the MEDICs.


                    SAFEGUARD ACTIVITIES
                    We have defined safeguard activities as any activity or process that is
                    able to prevent or detect fraud and abuse, as some activities identified
                    as safeguards are not designed explicitly for that purpose. From CMS’s
                    press releases, the oversight strategy document, and interviews with
                    CMS staff, we identified the following six major types of safeguard
                    activities:
                    1. Complaint Process—This process involves the intake, tracking, and
                    investigation of fraud complaints. Complaints may arise from
                    beneficiaries, pharmacists, plan staff, or any other person with a fraud
                    complaint pertaining to Medicare Part D. Complaints provide a source
                    of direct information about potential fraud.
                    2. Data Monitoring—Data monitoring describes the use of data systems
                    to assess transactions and look for anomalies that might suggest fraud.
                    This includes automated data edits, trend monitoring, and data mining.
                    3. Financial Audits—Financial audits verify that plan-reported financial
                    data are credible and accurate. The MMA specified that a financial
                    audit should be conducted on one-third of all Medicare Part D plans
                    each year. Financial audits could cover a wide range of topics and
                    would potentially reveal problems that may result in overpayment to
                    plans, including misrepresentation of bids, underreporting of rebates,
                    and inaccurate prescription drug event data.
                    4. Monitoring PDP Sponsor Compliance—CMS conducts a number of
                    monitoring activities designed to oversee the operation of PDPs. If
                    problems are identified through these activities, CMS can implement
                    intermediate sanctions or terminate a PDP contract. The activities
                    include account management activities, compliance audits, and
                    operational safeguards.




                      12 Centers for Medicare & Medicaid Services, “Part D Oversight Strategy for
                      Contractors/Industry.” October 24, 2005.



 OEI-06-06-00280    SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   4
I N T R O D        U C T         I O N 



                    •	     Account management—CMS account managers act as a nerve center
                           into which all types of PDP information feeds and are tasked with
                           educating PDP sponsors on new, revised, or misunderstood policies.
                           They hear complaints from the PDPs about CMS operations and
                           receive regular reports about beneficiary complaints and PDP-
                           reported data.

                    •	     Compliance audits—CMS staff use compliance audits to measure
                           PDP sponsors’ adherence to 14 broad elements that are required of
                           them.13 These audits are designed to ensure that plans have
                           management controls in place to enable all necessary functions,
                           including beneficiary enrollment and claims processing.

                    •	     Operational Safeguards—A wide range of management controls
                           used in the routine operation of Medicare Part D have both a
                           primary role in administration of the benefit and a secondary role of
                           fraud prevention and detection. Two examples of operational
                           safeguards are the bid review and the formulary and benefit
                           review.14 15
                    5. Oversight of PDP Efforts To Reduce Fraud and Abuse—As part of the
                    contract to administer PDPs, CMS requires PDPs to have in place
                    effective fraud control programs and recommends some specific


                         13 The 14 elements addressed in the audit protocol are: (1) Enrollment and
                         Disenrollment; (2) Provider Communication; (3) Marketing and Beneficiary Information;
                         (4) Privacy and Confidentiality; (5) Drug Utilization Management, Quality Assurance,
                         and Electronic Prescribing; (6) Pharmacy Access; (7) Formulary, Transition Process, and
                         Pharmacy & Therapeutics Committee; (8) Medication Therapy Management;
                         (9) Coordination of Benefits/True-Out-of-Pocket Costs; (10) Compliance Plan;
                         (11) First-Tier and Downstream Contracts/Maintenance of Records; (12) Claims
                         Processing and Payment; (13) Grievances, Coverage Determinations, and Appeals; and
                         (14) Licensure and Solvency.
                         14 The actuarial aspect of the bid review process is conducted by CMS’s Office of the
                         Actuary. CMS staff and contractors review bids to determine whether the assumptions
                         underlying financial projections are appropriate and reasonable. Included in this review
                         is a detailed statistical analysis to identify outlier values in the bid components. When
                         outliers are identified, a more thorough review is initiated and values are substantiated
                         prior to approval. Some specific aspects of the review may enable CMS to identify
                         inappropriate cost manipulation tactics that could affect total Part D costs.
                         15 CMS conducts a formal review to ensure that a PDP’s formulary and benefit structure
                         meet minimum specifications, ensuring that beneficiaries have access to a full range of
                         medications. The formulary review process is an automated process that checks for these
                         specifications. If the formulary does not pass the review, CMS returns the formulary to
                         the plan for revision. A similar process is used to ensure that the plan’s benefit package
                         matches its formulary. For example, if a plan’s benefit package indicates a certain
                         number of cost tiers, the formulary must show drugs available in each of the tiers.



 OEI-06-06-00280    SAFEGUARDS TO PREVENT     AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   5
I N T R O D        U C T      I O N 



                    activities to identify potential fraud and abuse.16 With the ability to
                    monitor drug transactions and implement utilization controls that could
                    serve as an alert for fraud, PDPs are uniquely situated to identify fraud
                    committed by beneficiaries or pharmacies.
                    6. Education and Guidance—CMS has an initiative to educate
                    beneficiaries about potential fraud schemes and how to protect
                    themselves. Training for law enforcement, CMS staff, and other
                    Government agencies is also designed to address fraud issues
                    developing in Medicare Part D.


                    SCOPE
                    This review describes the implementation status of CMS safeguard
                    activities related to stand-alone PDPs during FY 2006. We did not
                    describe safeguard activities conducted by the PDPs themselves. As the
                    prescription drug benefit is still new, we also did not seek to determine
                    the effectiveness of the safeguards that are in place or planned. We also
                    excluded issues of data integrity and security, which is being addressed
                    by a separate OIG inquiry. Although our focus was on PDPs, some of
                    the concerns raised may also be applicable to MA-PDs and the Retiree
                    Drug Subsidy.17 18


                    METHODOLOGY
                    We reviewed a variety of documents and conducted a series of
                    interviews with CMS and MEDIC staff to determine the
                    implementation status of safeguard activities at the time of our review.
                    Document Review
                    We reviewed publicly available documents as well as internal
                    documents provided to us by CMS and the MEDIC. Documents
                    included press releases, guidance documents, standard operating
                    procedures, budget documents, contracts, and training materials.




                      16 42 CFR § 423.504(b)(vi)(H). 

                      17 Medicare Advantage plans offer a complete range of health benefits including hospital

                      and physician coverage. They may choose to offer an additional prescription drug benefit 

                      through Medicare Part D. 

                      18 The Retiree Drug Subsidy encourages private employers to provide Part D benefits to 

                      their retirees by subsidizing the cost for Medicare-eligible beneficiaries. 




 OEI-06-06-00280    SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   6
I N T R O D        U C T     I O N


                    Interviews
                    We conducted 19 interviews, either in person or by telephone, primarily
                    during August and September 2006. These interviews were with CMS
                    staff in the Office of Financial Management, the Center for Beneficiary
                    Choices, and the Office of the Actuary. Our discussions addressed
                    specific program integrity issues involved in various operations of the
                    Medicare Part D program.
                    Site Visit
                    We conducted a site visit with the Enrollment and Eligibility MEDIC,
                    Delmarva Foundation, in Easton, Maryland. Delmarva Foundation was
                    the only MEDIC in operation at the time of our data collection. During
                    this visit, we interviewed managers and senior staff regarding their
                    contracting process, operations, and perspectives on fraud
                    vulnerabilities. Additionally, we observed the intake of beneficiary
                    complaints to the MEDIC fraud hotline by telephone operators, toured
                    the facility, and observed the use of the MEDIC’s data systems. We also
                    reviewed documentation of the complaint statistics, standard operating
                    procedures, and training sessions conducted by MEDIC staff.
                    Direct Observation
                    Several internal management systems were demonstrated for us by
                    both CMS and the MEDIC. At CMS, we observed several modules of
                    the Health Plan Management System (HPMS) in use, including bid
                    review, formulary submission and review, plan benefit package review,
                    and compliance audits.19 During the MEDIC site visit we observed use
                    of the Complaint Tracking Module of HPMS, as well as internal MEDIC
                    complaint-tracking and data analysis systems. We also used the
                    MEDIC’s complaint-tracking data to determine the overall number of
                    complaints.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




                      19 The HPMS is a Web-enabled information system that supports the ongoing operations
                      of the Medicare Advantage and Part D programs by facilitating electronic communication
                      between CMS and plans.



 OEI-06-06-00280    SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   7
   Δ       F I N D I N G S

                                                                Some aspects of CMS’s strategy to
CMS implemented safeguard activities throughout                 safeguard Medicare Part D have
      FY 2006; however, further development or                  been operational since enrollment
         application of these activities is needed              began in November 2005. Others
                                                                were implemented in a limited
                         capacity or had not yet begun. Below are descriptions of each of the six
                         safeguard activities, i.e., complaint process, data monitoring, financial
                         audits, monitoring PDP sponsor compliance, oversight of PDP efforts to
                         reduce fraud and abuse, and education and guidance, and their
                         implementation status as of the end of FY 2006.
                         Complaint Process—Complaint investigations resulted in 312 referrals
                         related to the “$299 Ring” scam and 122 other fraud referrals
                         The process to handle complaints has been in place since November
                         2005. Generally, complaints are submitted through a public number
                         (1-800-MEDICARE) and are routed to regional staff for followup and
                         resolution. However, complainants that suggest fraud are advised to
                         call to the MEDIC, which receives calls through a toll-free hotline
                         number (1-877-7SAFERX) that is dedicated to complaints about
                         potential Part D fraud. The MEDIC is responsible for evaluating the
                         merit of fraud complaints and conducts investigations to determine
                         whether referrals to law enforcement agencies or State insurance
                         commissions are appropriate. Shortly after the end of the fiscal year,
                         the MEDIC had investigated 1,421 complaints and made 434 fraud
                         referrals.20 Specifically, the MEDIC referred 38 cases to OIG, 80 cases
                         to State insurance commissioners, and 4 cases to local or State law
                         enforcement.21 Additionally, the MEDIC referred 312 cases for a
                         particular type of fraud, known as the “$299 Ring” scam. The “$299
                         Ring” scam involved a scheme whereby perpetrators called potential
                         enrollees and requested bank account numbers to withdraw payment
                         for enrollment into a nonexistent PDP.
                         Data Monitoring—Neither CMS nor the MEDIC had conducted any significant
                         data analysis for fraud detection purposes
                         Data-driven fraud detection was mentioned in multiple press releases
                         as a critical part of CMS’s fraud control strategy. However, those efforts
                         have been slow to materialize. Electronic systems were put in place to
                         ensure proper formatting and logical consistency in Part D claims data


                           20 The MEDIC complaint descriptors reflect complaints received until October 30, 2006.
                           21 A case referral may include numerous individual complaints.




       OEI-06-06-00280   SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   8
F   I N D I N G        S      



                      and controls were put in place to ensure that the extra benefits for low-
                      income enrollees are designated appropriately. However, no significant
                      data analysis had been conducted specifically to detect or prevent fraud
                      and abuse.

                      CMS staff reported that they did not expect to begin these efforts
                      immediately and that efforts were further delayed by a lag in data
                      submissions. The data lag occurred because it took time for the PDPs to
                      submit claims data properly, a consequence of a complex and quickly
                      designed system. Additionally, CMS experienced some data problems
                      during the early phases of implementation. One example is that some
                      beneficiaries appeared to be incorrectly enrolled in two PDPs
                      simultaneously, allowing drug transactions to be billed to the incorrect
                      PDP. This problem was eventually resolved, but the process of
                      correcting those errors did not begin until August 2006.

                      Another barrier to conducting data analysis was the lack of a
                      centralized data repository. In September 2006, CMS contracted with
                      Electronic Data Systems to be the One Program Integrity System
                      Integrator (One PI). The One PI will warehouse Medicare data for
                      prescription drugs, physician services, and inpatient care, among other
                      data. This contract represents a significant step towards the use of
                      data-driven fraud detection methods, but no actual data analysis is
                      expected until the summer of 2007. When operational, this group will
                      be responsible for using data analysis techniques to uncover fraud,
                      waste, and abuse. It will also offer powerful data analysis tools and
                      make data accessible to CMS program integrity staff and other
                      appropriate parties via a Web-based portal.
                      Financial Audits—CMS let a contract to develop the financial audit program
                      just before the end of FY 2006, with an expectation that the first audits will
                      begin in January 2008
                      The final reconciliation between CMS and the PDP sponsors is scheduled
                      to begin in September 2007, following the June 30, 2007, deadline for
                      PDPs to submit rebate information. CMS staff do not plan to begin
                      conducting financial audits until the reconciliation is complete, which
                      means that the earliest financial audits will likely begin in January 2008.
                      These first audits will be designed to verify financial data for plan year
                      2006.

                      CMS is required to conduct audits on one-third of Medicare Part D
                      organizations, including PDPs, each year. However, the one-third audit
                      requirement does not specify that CMS audit every plan within a 3-year

    OEI-06-06-00280   SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   9
F   I N D I N G 
S


                      period or any other timeframe. Therefore, it is conceivable that some
                      plans would not be audited during the Part D program’s initial 3-year
                      period.

                      In addition, CMS staff expressed concern that funding limitations may
                      constrain the depth and/or breadth of the audits. Although CMS took a
                      significant step in preparation for the audits by hiring a contractor in
                      September 2006 to develop the audit process and protocols, further and
                      more costly steps are still needed. By September 2007, CMS expects to
                      have a final audit process and protocol, including thresholds for audit
                      findings and timelines for conducting audits, but still needs to hire and
                      train additional contractors to conduct the audits. The number of staff
                      required has not yet been determined but will likely be significant and
                      costly. For the financial audits to proceed as planned, CMS will need to
                      identify them as a high priority when making budget decisions.
                      Monitoring PDP Sponsor Compliance—Efforts to monitor PDP sponsor
                      compliance are in place, but compliance audits have been delayed
                      Although routine account management activities and operational
                      safeguards were in place prior to the first beneficiary enrollment period,
                      compliance audits had not started as of the end of FY 2006. CMS staff
                      have, however, undergone extensive preparations for conducting
                      compliance audits. Audit protocols have been developed and many staff
                      at CMS are reportedly trained and ready to begin the audit process.
                      Compliance audits were scheduled to begin in the summer of 2006 but
                      were delayed because the data system that enables CMS to schedule
                      and track compliance audits encountered technical problems. Staff
                      anticipated that the first audits would be conducted in early 2007.
                      Oversight of PDP Efforts to Reduce Fraud and Abuse—CMS issued
                      requirements for PDP sponsors’ fraud, waste, and abuse compliance plans
                      As a part of their contracts, PDP sponsors must agree to implement fraud
                      control programs.22 CMS issued guidelines to PDP sponsors before the
                      benefit began and then updated guidance with the release of the initial
                      chapter (issued as chapter 9) of its “Prescription Drug Benefit Manual” in
                      April 2006. This chapter describes specific requirements for PDP
                      sponsors’ fraud, waste, and abuse compliance plans which address
                      primarily basic infrastructure.23 Specific fraud detection activities are


                        22 42 CFR § 423.504(b)(vi)(H). 

                        23 Centers for Medicare & Medicaid Services, “Prescription Drug Benefit Manual,” 

                        chapter 9.




    OEI-06-06-00280   SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   10
F   I N D I N G        S      



                      recommended but are not required. CMS expected that PDPs would
                      incorporate CMS guidance into their compliance plans by January 2007.
                      An OIG report, “Prescription Drug Plan Sponsors’ Compliance Plans,”
                      found that although all PDP sponsors had a plan to detect, correct, and
                      prevent fraud, waste, and abuse in place by January 1, 2006, few PDPs
                      addressed all of CMS’s recommendations for specific fraud and abuse
                      detection activities.24
                      Education and Guidance—Many education efforts were under way, but the
                      slow release of two key documents raises concern
                      By the end of FY 2006, CMS and the MEDIC had conducted numerous
                      training sessions for beneficiaries, PDP sponsors, and law enforcement
                      entities. Other educational efforts included advisory opinions, direct
                      mailings, training, and conferences. These efforts contribute to
                      beneficiary protection, as well as information sharing between law
                      enforcement groups working on Medicare Part D integrity issues.

                      Despite these efforts, the delayed release of two critical documents
                      raises concern. First, although CMS makes most of its Medicare Part D
                      guidance materials available on the Internet, the agency has not yet
                      completed the “Prescription Drug Benefit Manual.” As of the end of FY
                      2006, five chapters had been released in final form, including the
                      following: 2, “Part C and D Marketing Guidelines,” 3, “PDP Enrollment
                      and Disenrollment Guidance,” 9, “Fraud Compliance Plans,”
                      14, “Coordination of Benefits,” and 18, “Grievances, Coverage
                      Determinations, and Appeals.” As a result, PDP sponsors are expected
                      to cull the information about Medicare Part D requirements from a
                      variety of letters and guidance documents. Second, CMS’s only
                      Medicare Part D fraud alert issued during the first year of the program
                      took several months to release. The alert regarded the “$299 Ring”
                      scam. A consumer alert was released in June 2006, but the fraud alert,
                      which is intended to be an early alert for law enforcement entities and
                      PDP sponsors, had not been released by the end of the fiscal year.25
                      CMS staff explained that the delay was due to CMS’s writing, editing,
                      and clearance process, as well as its perception that the warning was
                      most pertinent during periods of plan marketing and open enrollment,
                      which occurred in November 2006.



                        24 OEI-03-06-00100. 

                        25 The fraud alert was released in November 2006. 





    OEI-06-06-00280   SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   11
       F   I N D I N G        S      




In FY 2006, CMS relied largely on complaints to             With aspects of CMS’s fraud protection
                                                            program not in place at the time of our
       identify potential fraud and abuse in the
                                                            review, CMS relied largely on complaints
     Medicare Part D program; however, not all
                                                            to identify potential fraud schemes and
           complaints were investigated timely              abusive practices in the first fiscal year of
                                                            Medicare Part D operation. CMS staff
                             described complaints as an effective fraud and abuse protection tool,
                             indicating that beneficiaries are frequently vocal about their
                             experiences and often report suspected wrongdoing. Further, CMS staff
                             suggested that some types of fraud are best identified by beneficiaries’
                             reporting directly on their experiences.
                             Although complaints are a valuable source of information, we noted two
                             weaknesses in the complaint process. First, the MEDIC was battling a
                             sizeable number of open complaint cases deemed worthy of
                             investigation, and second, Medicare Part D fraud complaints submitted
                             to 1-800-MEDICARE are not tracked, allowing for the possibility of
                             missing important information from valid fraud complaints.
                             Shortly after the close of FY 2006, 24 percent of the 6,132 complaints
                             received by the MEDIC were open, most of which required further
                             investigation
                             At the time of our data collection, a single MEDIC (Delmarva
                             Foundation), contracted to focus on enrollment and eligibility fraud in
                             the early months of Medicare Part D operation, was responsible for
                             tracking and investigating all fraud complaints and referring cases of
                             merit to law enforcement. The MEDIC conducted complaint intake and
                             triage on 6,132 complaints received during FY 2006.26 The triage
                             process is used to determine a priority level for further investigation
                             and helps to ensure that the most serious fraud complaints are quickly
                             identified.27 A few complaints are quickly referred to an enforcement
                             agency without ever being investigated by the MEDIC, and many others
                             are quickly closed or referred to the PDP because it is clear that fraud is
                             not the issue. The remaining complaints are considered “open” until the
                             case is referred to and accepted by law enforcement or closed as a result
                             of insufficient evidence.




                               26 The MEDIC complaint data reflect complaints received through October 30, 2006.
                               27 The triage process involves evaluating each complaint on five criteria: patient abuse,
                               geographic scope of impact, monetary impact, ability to prosecute, and pattern of fraud.



           OEI-06-06-00280   SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   12
F   I N D I N G        S      



                      Shortly after the end of FY 2006, the MEDIC had 1,475 open complaints
                      in various stages of investigation. These included complaints awaiting
                      review, active investigations, and cases in the preliminary stages of
                      referral to law enforcement agencies. Of these, almost half had been
                      open for at least 150 days and a few had been open for 300 days or more.

                      The significant number of open complaints appears to be the result of an
                      insufficient number of investigative staff. The first MEDIC contract
                      funded only primary activities, such as complaint intake and
                      investigation, forcing the MEDIC to reduce its original plan for the
                      range of efforts employed and resources dedicated to fighting fraud.
                      Although the MEDIC maintained all complaint intake activities, only
                      three full-time and three part-time investigative staff were assigned to
                      conduct follow-up investigations. Staff at CMS and staff at Delmarva
                      Foundation were optimistic that, with the addition of the three regional
                      MEDICs beginning operations in December 2006, the number of open
                      complaints would be dramatically reduced.
                      Medicare Part D fraud and abuse complaints submitted to 1-800-MEDICARE
                      are not logged or tracked
                      Both 1-800-MEDICARE and 1-877-7SAFERX are publicized phone
                      numbers, but 1-800-MEDICARE is designed as a resource to answer
                      general questions and receive all types of Medicare complaints,
                      including Medicare Part D fraud complaints. In contrast, 1-877-
                      7SAFERX is dedicated to complaints about Medicare Part D fraud.
                      Although the customer service representatives at 1-800-MEDICARE
                      enter most complaints into the Complaint Tracking Module of HPMS,
                      Medicare Part D fraud complaints are not entered. When Medicare
                      Part D fraud is suspected, the customer service representative advises
                      the caller to call the MEDIC at 1-877-7SAFERX. CMS does not track
                      how many people have been advised to call the MEDIC, nor does it
                      conduct any followup to ensure that the complainant actually called the
                      MEDIC. To the extent that callers are not following through with calls
                      to 1-877-7SAFERX, valid complaints could be slipping through the
                      cracks.




    OEI-06-06-00280   SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   13
 F   I N D I N G        S      




Limits to legal authority, jurisdiction, and CMS’s           Despite the operation of six types
     ability to monitor enrollees switching plans            of safeguard activities, we
                                                             identified three impediments to
           complicate CMS’s efforts to safeguard
                                                             the effective oversight of Medicare
                             Medicare Part D PDPs
                                                             Part D, specifically in the areas of
                       financial auditing, Part D marketing, and utilization management.
                       Although these impediments are not insurmountable, they do make
                       CMS’s Medicare Part D oversight responsibility more difficult to fulfill.
                       CMS has limited ability to verify that direct and indirect remuneration are
                       accurately reported by PDP sponsors
                       After the plan year has ended, PDPs must report to CMS all outstanding
                       financial information, including direct and indirect remuneration.
                       Remuneration received by PDP sponsors may reduce the PDP sponsor’s
                       cost of providing Medicare Part D drugs. Such remuneration includes
                       manufacturer or pharmaceutical benefit manager rebates, chargebacks,
                       discounts, goods in kind, or grants. Remuneration is deducted from PDP
                       losses (or added to PDP profits) for the year and may have a significant
                       impact on the final payment reconciliation between CMS and PDP
                       sponsors, because it directly affects the amount of money that CMS will
                       reimburse or recoup from PDPs. Underreporting remuneration could
                       result in significant losses to the Medicare Part D program. The onus is
                       on PDPs to accurately and completely report this information. However,
                       CMS’s ability to check the veracity of this self-reported data is limited to
                       financial audits, and auditors will be faced with the difficult task of
                       identifying any remuneration that is not reported by PDPs or their
                       subcontractors.
                       Additionally, CMS staff do not currently have the legal authority to go
                       onto the premises of the pharmaceutical benefit managers to verify the
                       flow of goods and money. Instead, CMS must rely on PDP sponsors to
                       include sufficient requirements in their own contracts with subcontractors.
                       Regulations require that a PDP sponsor “agrees to require all related
                       entities, contractors, or subcontractors” to allow CMS access to documents
                       and information for the purpose of audits.28 However, if the PDP sponsors
                       fail to include sufficient access provisions in their contracts with
                       subcontractors, the regulations afford CMS no direct regulatory authority
                       to independently access information.



                         28 42 CFR § 423.505(i)(2).




     OEI-06-06-00280   SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   14
F   I N D I N G        S      



                      CMS has limited authority over insurance brokers, one of the most
                      frequent subjects of fraud complaints
                      Brokers are paid a commission to enroll eligible beneficiaries into a
                      plan. Brokers may represent any number of PDPs and receive different
                      commissions based on which plan is selected by the beneficiary.
                      Dishonest brokers may inappropriately steer potential enrollees to
                      particular plans by providing false or limited information. Some of the
                      most egregious complaints received to date involve brokers enrolling
                      beneficiaries without their consent. Because brokers assist in boosting
                      enrollment numbers, plans have few incentives to rein in dishonest
                      brokers. CMS requires that plan subcontractors, including brokers,
                      comply with all Medicare Part D regulations, but this proves difficult to
                      enforce with respect to brokers for several reasons. First, if CMS learns
                      that a broker is not in compliance with Part D marketing and
                      enrollment requirements, it cannot take direct corrective action against
                      the broker itself. Rather, CMS would have to take enforcement actions
                      against the PDP sponsor who contracted with the broker. Second,
                      because brokers are regulated by State insurance commissions, the
                      MEDIC must refer alleged broker misconduct to the appropriate State
                      insurance commission and rely on it to take corrective actions against
                      the broker. Third, privacy restrictions contained in the Health
                      Insurance Portability and Accountability Act of 1996 (HIPAA)
                      necessitate that the MEDIC obtain consent from the enrollee before
                      sharing case-specific information with the State insurance commission.
                      With the cases that have been referred, the MEDIC experienced delays
                      and sometimes difficulty getting such consent.
                      Overutilization of drugs for the purpose of personal drug abuse or selling
                      prescription drugs for profit poses a significant cost risk to Medicare
                      Part D; however, plans are limited in their ability to monitor suspect
                      enrollees
                      Although the inappropriate costs per individual may be small, the
                      suspected widespread nature of this type of fraud poses a significant
                      risk to the program. The MEDIC staff is aware of approximately 60,000
                      persons who were identified by State Medicaid programs because they
                      demonstrated unusual drug utilization patterns prior to their transition
                      to Medicare Part D. Some State Medicaid programs conducted routine
                      data checks to identify potentially inappropriate utilization by
                      individuals, known as “overutilizers,” and took steps to control their
                      drug access through management structures, such as prior
                      authorizations and pharmacy restrictions. Information about specific,


    OEI-06-06-00280   SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   15
F   I N D I N G        S      



                      known overutilization risks in State Medicaid programs was not
                      transferred to PDPs when the Medicare Part D benefit began. Thus,
                      PDPs must conduct their own analysis to identify these risks. PDPs
                      face further difficulty in developing and maintaining knowledge about
                      potential overutilizers because most beneficiaries are able to change
                      plans every year and Medicare/Medicaid dually eligible beneficiaries are
                      able to change plans every month. PDPs and the MEDIC have
                      interpreted HIPAA privacy provisions as prohibiting communication
                      about suspected overutilizers. As such, plans must develop a new
                      utilization profile for an enrollee each time the enrollee changes plans.
                      HIPAA provisions allow PDPs to communicate about beneficiaries
                      suspected of inappropriate behavior, as long as each PDP currently has
                      or previously had a relationship with the beneficiary in question.
                      However, there is currently no mechanism by which PDPs can identify
                      which other PDPs have or previously had a relationship with a
                      beneficiary.




    OEI-06-06-00280   SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   16
Δ      R E C O M M E N D A T I O N S
                  CMS is making progress towards fulfilling its plans for preventing and
                  detecting fraud and abuse in PDPs; however, some activities were not
                  fully implemented by the end of FY 2006. CMS staff report that some
                  activities would have been premature or point to funding and data
                  limitations as a rationale for delays. Although we recognize the short
                  timelines and significant challenges that CMS faced in rapidly
                  implementing the Medicare Part D program, the impact on beneficiaries
                  as well as the large magnitude of outlays (i.e., $47 billion in 2006) call
                  for commensurate safeguard activities. In an effort to continue
                  improving CMS’s safeguard strategy, we recommend that CMS:
                  Develop a comprehensive safeguard strategy for Medicare Part D PDPs with
                  specific activities and target dates and ensure that all activities are
                  progressing in a timely manner
                  CMS had begun implementation activities in all safeguard areas, but
                  CMS staff could not provide timelines for final implementation. CMS
                  should develop a comprehensive written strategy document with specific
                  activities and target dates and assign staff to follow up on progress.
                  This document should serve as a management tool to coordinate
                  different CMS groups that may have a role in safeguarding Medicare
                  Part D PDPs and aid in identifying areas that may not be adequately
                  protected by the safeguards that are in place. It should also be used as
                  a prompt to notify appropriate senior staff if implementation activities
                  fall behind schedule. Further, CMS should make Medicare Part D
                  safeguard activities a sufficient priority in the budgeting process to
                  support their timely and effective administration. Of foremost concern
                  are commencement of the financial audits, sufficient MEDICs to
                  investigate fraud complaints, and the pursuit of innovative data-driven
                  techniques to identify potential fraud and abuse.
                  Ensure that all fraud complaints receive proper attention
                  As the number of MEDICs and staff assigned to investigate complaints
                  increases, CMS should have a process in place to monitor the number of
                  open complaints and take action if backlogs occur. Additionally, CMS
                  should investigate options for customer service representatives to
                  directly transfer fraud complaints received by 1-800-MEDICARE to the
                  appropriate MEDIC.




OEI-06-06-00280   SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   17
R   E C O        M M E N D A T             I O N           S   



                      Address legal concerns that may impede program integrity efforts
                      Three concerns in particular require attention:

                      Require PDP sponsors to include standard wording regarding requirements for
                      record retention and accessibility within subcontractor contracts.

                      Verification that PDPs report all remuneration is intrinsically difficult.
                      For this reason, it is critical for CMS to have full access to primary
                      documentation about remuneration, including that maintained by a
                      pharmaceutical benefit manager or other subcontractor. Further, CMS
                      should not be limited in its ability to access critical information because
                      only general or nonspecific requirements are included in subcontractor
                      contracts. The standard wording should include provisions for (1) CMS
                      accessing information directly from subcontractors; (2) timelines for
                      both records maintenance and accessibility; (3) special circumstances,
                      such as terminated contracts; and (4) penalties for noncompliance with
                      records access provisions. Further, the inclusion of this language
                      should be verified through either the financial audits or compliance
                      audits.
                      Enforce appropriate sanctions for PDPs whose brokers violate permissible
                      marketing practices.

                      The prevalence of complaints from FY 2006 indicates that improper
                      broker marketing practices pose a significant risk for the Part D
                      program. Although CMS may be unable to directly penalize brokers
                      who are conducting illegal marketing practices, the PDPs have ultimate
                      responsibility for their subcontractors.29 CMS guidance requires PDPs
                      to monitor the performance of subcontractors, including marketing
                      practices. CMS Part D regulations also require that PDP subcontractor
                      contracts include a provision allowing CMS or the PDP to take
                      corrective action if either CMS or the PDP determines that the
                      subcontractor is not performing satisfactorily.30 CMS should be vigilant
                      in its oversight of insurance brokers and ensure strong enforcement of
                      Part D marketing standards.




                        29 42 CFR § 423.505(i). 

                        30 42 CFR § 423.505(i)(4)(ii). 





    OEI-06-06-00280   SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   18
R 	E C O      M M E N D A T          I O N           S      



                   Utilize the MEDICs as intermediaries for PDPs to share information about their
                   beneficiaries suspected of inappropriate utilization.

                   Currently, there is no way for information about extreme or unusual
                   utilization by a particular beneficiary to be communicated between the
                   beneficiary’s prior PDP to his or her next PDP. Allowing the MEDICs
                   to act as repositories of information about beneficiaries suspected of
                   fraud would improve PDPs’ ability to identify and monitor drug-seeking
                   and drug-selling behavior. Further, early identification of these
                   individuals would limit the effectiveness of a beneficiary switching
                   plans to avoid targeted actions by the PDPs to prevent fraud. In
                   implementing this activity, CMS should explore whether this
                   recommendation can be addressed by revising MEDIC contracts.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its comments to the draft report, CMS did not indicate whether it
                   concurred with our recommendations, but did provide comments
                   regarding each recommendation (see Appendix B). CMS responded that
                   many of its ongoing activities already satisfy our recommendations. It
                   further stated that the report does not fully explain the immense
                   workload required for CMS to develop and administer the benefit in its
                   first year and indicated that processes and procedures have improved
                   over time. In its technical comments, CMS reported several advances in
                   its safeguard strategy that occurred after the end of our data collection
                   period (FY 2006). The advances CMS reported include:
                       	   continued progress towards commencement of the financial
                            audits. Audits are still scheduled to begin by the end of calendar
                            year 2007;
                       	   successful negotiations to allow MEDICs sufficient access to
                            PDP data so that data-driven fraud detection activities can
                            begin;
                       	   improvement in processing complaints timely. Specifically, CMS
                            reported that of 5,286 complaints received by the MEDICs
                            between December 2006 and June 2007, only 2 are older than 30
                            days;
                           commencement of routine PDP compliance audits in February
                            2007;
                           issuance of a self-assessment tool to assist PDPs in improving
                            their fraud, waste, and abuse compliance plans; and


 OEI-06-06-00280   SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   19
R 	E C O      M M E N D A T          I O N           S


                       	   release of four new chapters of the Prescription Drug Benefit
                            Manual.

                   Comprehensive safeguard strategy

                   Regarding our recommendation to develop a comprehensive safeguard
                   strategy with specific activities and target dates, CMS stated that the
                   MEDIC task orders and Umbrella Statement of Work (USOW) are
                   CMS’s comprehensive safeguard strategy for the Part D program.
                   Additionally, CMS responded that the broader strategy for fighting
                   fraud, waste, and abuse is the three-pronged strategy. Although OIG
                   agrees that the task orders and USOW provide an important framework
                   for enacting many safeguard activities, these documents are specific to
                   the MEDIC activities and do not address the broad coordination that is
                   needed between different groups within CMS that each have a role to
                   play in safeguarding Medicare Part D. With regard to CMS’s three-
                   pronged strategy, the documents we reviewed lacked the details,
                   deliverables, and timelines that would extend its use from a broad
                   strategic concept to a useful management tool. Therefore, we continue
                   to recommend that CMS create a comprehensive safeguard strategy
                   that includes specific activities across the range of its existing and
                   planned program integrity efforts and tie these activities to target dates
                   so that implementation progress can be monitored, strengths can be
                   identified, and delays can be addressed.
                   Fraud complaints

                   Regarding our recommendation to ensure that all fraud complaints
                   receive proper attention, CMS stated that ensuring all complaints are
                   addressed promptly is a top priority. CMS also expressed concern that
                   our draft report misrepresented the MEDIC’s activities in responding to
                   complaints but acknowledged early difficulties with the volume of
                   complaints. Further, CMS stated that the three MEDICs contracted for
                   FY 2007 would be sufficient to fully investigate and resolve fraud
                   complaints.

                   Because of CMS’s concern that we misrepresented the MEDIC’s
                   activities in responding to complaints, we made revisions to avoid
                   characterizing open complaint cases as a “backlog” and to more fully
                   describe the status of the open cases at the time of our data collection.
                   However, the number of open cases and the time that some cases
                   remained open suggest that the complaint process is susceptible to
                   backlogs. Consequently, OIG continues to recommend that CMS devote

 OEI-06-06-00280   SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   20
R   E C O        M M E N D A T          I O N           S


                      sufficient resources to ensure that all fraud complaints receive proper
                      attention, including implementing a system to monitor the complaint
                      caseload for potential backlogs.

                      CMS also stated that it will explore the feasibility of transferring Part D
                      fraud calls from 1-800-MEDICARE directly to the MEDIC hotline and
                      that, until a decision is made, 1-800-MEDICARE customer service
                      representatives will remain responsible for making determinations as
                      to whether calls should be sent to MEDICs. We clarify that the intent of
                      this recommendation is to ensure that once a fraud complaint is
                      identified, complainants should be directly connected to the MEDIC,
                      rather than being advised to call the MEDIC hotline. We expect that
                      customer service representatives will continue to be responsible for
                      identifying which calls should be directly connected to the MEDIC.
                      Address legal concerns

                      Regarding our recommendation to pursue legal authority to obtain
                      records directly from subcontractors and to explicitly require
                      subcontractors to retain their documents, CMS stated that it currently
                      has authority to obtain records from subcontractors and that
                      requirements for record retention already exist. OIG interprets the
                      existing authority as being dependent on the inclusion of sufficient
                      contractual language by PDP sponsors within their subcontractor
                      contracts. We modified this recommendation to more specifically
                      address this underlying concern.

                      Regarding our recommendation to enforce appropriate sanctions for
                      PDPs whose brokers violate permissible marketing practices, CMS
                      described its authority and a range of potential sanctions it is able to
                      impose in the event of noncompliance with marketing guidelines.

                      Regarding our recommendation to utilize the MEDICs as intermediaries
                      for PDPs to share information with each other about suspected fraud,
                      CMS stated that it will evaluate the possibility and potential
                      implications of having the MEDICs serve as the intermediaries for PDP
                      data.
                      Request for final comments

                      We ask that, in its final management decision, CMS indicate whether it
                      concurs with our recommendations and what steps, if any, it will take to
                      implement them.




    OEI-06-06-00280   SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   21
Δ      A    P     P   E    N     D    I   X             A

                      Medicare Part D Benefits and Operation
                      Medicare Part D benefits are provided by private insurers, either in the
                      form of a stand-alone PDP or as part of a comprehensive Medicare
                      managed care plan, known as a MA-PD. PDP plans provide Medicare
                      beneficiaries access to prescription drugs for low monthly premiums and
                      copayments. The MA-PD plans include hospital and physician
                      insurance, as well as the prescription drug benefits. For 2006, there
                      were 1,429 PDPs and 1,314 MA-PDs.

                      Medicare Part D plans provide coverage that is at least actuarially
                      equivalent to a defined standard benefit. The defined standard benefit
                      in 2006 provided coverage in four progressive phases: (1) a $250
                      deductible; (2) beneficiary coinsurance of 25 percent of drug costs
                      between $250 and $2,250; (3) coverage gap with the beneficiary
                      responsible for all drug costs between $2,250 and $5,100; and
                      (4) catastrophic coverage with a beneficiary coinsurance of 5 percent for
                      all drug costs over $5,100. Most drug plans offered in 2006 opted for an
                      alternative benefit structure, but the defined standard benefit still
                      serves as the baseline. Although beneficiary-paid premiums and other
                      cost sharing cover approximately 25 percent of the program’s expected
                      cost, the remaining 75 percent is drawn from the Medicare Trust Fund.
                      Medicare Part D Program Operations
                      Managing the Medicare Part D program requires many coordinated
                      activities. For each year, prospective sponsors must submit an
                      application demonstrating that all qualifications will be met, including
                      an acceptable formulary. CMS staff review the applications and
                      formularies to determine an intent to comply with program
                      requirements. Accepted applicants may then submit bids, which
                      include the benefit designs and attestations that the benefit is
                      actuarially equivalent to the defined standard benefit; the expected
                      costs of the program; and any cost utilization controls that will be
                      employed. Once the bid is deemed acceptable, a contract is let with the
                      plan sponsor and the private organization agrees to abide by all
                      Medicare Part D regulations.

                      Plans may begin marketing activities the October prior to the beginning
                      of the plan year. All marketing materials must either use standardized
                      language that is on file with CMS or have CMS review the materials for
                      accuracy and appropriateness. Open enrollment begins on
                      November 15, which allows enrollees to select a plan or change their
                      plan designations. Enrollees may evaluate plan options by their use of


OEI-06-06-00280       SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   22
A   P   P E N D   I X       A      





                  premiums, deductibles, and copays; the drugs allowed through the
                  formularies; restrictions that may be placed on drug utilization; and the
                  benefit designs to determine which plan best accommodates their needs.
                  Several resources are available to assist beneficiaries in making their
                  selections, including the Web-based plan finder and 1-800-MEDICARE
                  staff. Some enrollees with low income qualify for additional financial
                  assistance to cover the costs of premiums, deductibles, and copays.
                  Enrollees that are dually eligible for Medicare and Medicaid will be
                  automatically assigned to plans if they do not select plans themselves.

                  Once the plan year begins, enrollees are entitled to the prescription
                  drug benefits offered by their selected plans. The plans record each
                  pharmacy transaction and report summary information about the
                  transaction to CMS. The information reported to CMS is called the
                  Prescription Drug Event and is used for a year-end reconciliation. The
                  plans, however, hold the primary responsibility for tracking each
                  beneficiary’s total drug costs and out-of-pocket expenses. Beneficiary
                  drug costs and out-of-pocket expenses (formally called true-out-of-
                  pocket, or TrOOP) determine when the beneficiary enters particular
                  phases of the benefit. Specifically, total drug costs determine when a
                  beneficiary enters the coverage gap and TrOOP determines when the
                  catastrophic benefit begins.

                  CMS pays plans prospectively; however, certain payments are
                  reconciled after the end of the plan year. CMS’s payments to plans
                  include: (1) a risk-adjusted prospective payment for each beneficiary
                  enrolled, each month; (2) a subsidy to account for the lower premiums,
                  deductibles, and copayments offered to qualifying low-income enrollees;
                  (3) reinsurance for a portion of drug costs incurred by plans during the
                  catastrophic coverage phase; and (4) a payment adjustment (positive or
                  negative) for a predetermined risk-sharing agreement. The
                  reconciliation process does not begin until plans have fully disclosed
                  their direct and indirect remuneration, e.g., rebates, due approximately
                  6 months after the end of the plan year. Consequently, payments are
                  not fully adjudicated until several months after the plan year, at a
                  minimum.




OEI-06-06-00280   SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   23
Δ        A    P   P     E     N    D    I      X          B


     Agency Comments




OEI-06-06-00280       SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   24
A   P P    E      N   D    I   X     B




OEI-06-06-00280           SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   25
A   P     P E N D         I X     B




        OEI-06-06-00280     SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   26
A    P   P E N D      I X      B




    OEI-06-06-00280   SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   27
Δ   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Kevin K. Golladay,
                  Regional Inspector General for Evaluation and Inspections and
                  A. Blaine Collins, Deputy Regional Inspector General for Evaluation
                  and Inspections in the Dallas regional office.

                  Amy Ashcraft served as the team leader for this study, and Tom
                  Browning served as the lead analyst. Central office staff who
                  contributed include Linda Abbott.




OEI-06-06-00280   SAFEGUARDS TO PREVENT   AND   DETECT FRAUD   AND   ABUSE IN MEDICARE PRESCRIPTION DRUG PLANS   28
